                                     Office of the Inspector General
                     United States Government Accountability Office


GAO/OIG

December 2010
                GAO TRAVEL CARDS

                Opportunities Exist to
                Further Strengthen
                Controls




GAO/OIG-11-1
December 7, 2010


GAO Travel Cards
Opportunities Exist to Further Strengthen Controls

Objective: To assess whether GAO’s policies and procedures (controls) are
effective in preventing and detecting travel charge card misuse and delinquencies.
What OIG found: GAO’s policy and procedures were generally effective in
preventing and detecting travel charge card misuse. For example, GAO monitors
monthly travel card activity reports to identify potential misuse and contacts
employees regarding questionable charges. However, based on our analysis of travel
card data, we identified areas where GAO’s travel card program could be
strengthened by adopting selected best practices identified in related Office of
Management and Budget (OMB) guidance. For example, we determined that GAO
could lower the spending limits (maximum charge amounts) for many cards and
reduce the number of cards in use. After we provided GAO officials with our
analysis, the agency lowered the monthly spending limit for individual travel charge
cards from $12,500 to $7,500 and plans to assess the need for further reductions. In
addition, our analysis identified a number of cards that were not being used. In
response, GAO in August 2010 eliminated 12 of its 18 centrally billed cards.
In testing the effectiveness of GAO’s monitoring of travel card delinquency, we
found that the agency could improve its procedures to reduce delinquency. Our
analysis of travel card payment information for 17 months showed that 238
employees, or 10 percent of card users, were delinquent one or more times. After
we briefed GAO officials on our analysis, the agency changed its procedures to
begin monitoring late travel card payments earlier and, to assess its monitoring
efforts, has agreed to use a delinquency rate performance metric. While the agency
has had a process to take action when employees were delinquent in paying their
travel cards, we found that GAO was missing a key component—procedures that set
out the requirements and time frames for referring delinquent cardholders for
potential disciplinary action.
We also determined whether GAO was using OMB Circular No. A-123, Appendix B
guidance and the controls it requires executive branch agencies to use in managing
their travel card programs. We found that GAO has implemented some of the
controls identified by OMB in its guidance, but is not using other controls, such as
statistical and narrative information on travel card use to enhance program
oversight and management of its travel card program. Further, GAO had not
developed a management plan to help provide a road map for ensuring the ongoing
effectiveness of its risk management controls. In addition, we found that OMB’s
travel card guidance was not used by GAO to manage or assess the effectiveness of
its travel card program controls.

Recommendations for executive action:
• Develop procedures to minimize the number of travel cards and review the
  appropriateness of travel card spending and related ATM cash advance limits.
• Develop policies and procedures, including time frames, for referring delinquent
  cardholders for disciplinary action and notifying the OIG of actions taken.
• Develop and report statistical and narrative travel card compliance information
  to oversight managers.
• Establish a goal to gauge agency progress in reducing delinquency.
• Review OMB Circular No. A-123, Appendix B, to identify and adopt, as
  appropriate, additional controls and best practices to help reduce travel card
  program risk and improve management’s assessment of travel card program
  controls.


                                                   GAO/OIG-11-1 GAO Travel Cards
Memorandum
Date:         December 7, 2010

To:           Acting Comptroller General Gene L. Dodaro

From:         Inspector General Frances Garcia

Subject:      GAO Travel Cards: Opportunities Exist to Further Strengthen Controls


GAO had 2,884 travel card accounts, primarily issued to employees as individually billed
accounts, and about $10.4 million in related travel card charges as of September 30, 2010.
While the charges for centrally billed travel cards go directly to the government for
payment, 1 individually billed travel cardholders are directly responsible for all charges
incurred on their travel card account and for remitting payments on the monthly bill. The
cardholders are expected to use the government travel card only for valid expenses related
to official travel. The intent of the travel card program is to improve convenience for the
traveler and to reduce the government’s costs of administering travel. Audits of agency
travel card programs by GAO and others have found varying degrees of waste, fraud, and
abuse at a number of agencies because the agencies have failed to implement adequate
safeguards against card misuse. In response to these findings, Congress has held hearings
and introduced legislation in the current Congress that would enhance travel card
management and oversight. 2 In addition, the Office of Management and Budget (OMB) has
issued guidance, OMB Circular No. A-123, Appendix B, for executive branch agencies that
establish standard minimum requirements (including internal controls that are designed to
minimize the risk of travel card misuse) and suggested best practices for government card
            3
programs. As a legislative branch agency, GAO is not required to follow any OMB
circulars, including OMB Circular No. A-123 or its appendixes. However, as a matter of
policy, GAO has indicated that it generally would assess and report on the effectiveness of
GAO’s internal controls in accordance with the principles of OMB Circular No. A-123. 4




1
  Centrally billed travel cards are generally used by agency units to pay transportation expenses.
2
  Government Charge Card Abuse Prevention Act of 2009, S. 942, 111th Cong., 1st Sess. (2009). Government Charge
Card Abuse Prevention Act of 2009, H.R. 2189, 111th Cong., 1st Sess. (2009).
3
  OMB Circular No. A-123, Appendix B, Improving the Management of Government Charge Card Programs
(Jan. 15, 2009).
4
  GAO Order 0201.3, Management’s Responsibility for Internal Controls (Aug. 23, 2006).

Page 1                                                                       GAO/OIG-11-1 GAO Travel Cards
Background
GAO exists to support Congress in meeting its constitutional responsibilities and to help
improve the performance and ensure the accountability of the federal government for the
benefit of the American people. To help fulfill its mission, GAO requires many of its over
3,200 employees to travel to audit federal expenditure of funds. Federal travel regulations
and GAO’s travel card order require GAO employees who travel to use the government
travel card—a type of charge card—for major official travel-related expenses.

Government Travel Charge Cards
The Travel and Transportation Reform Act (TTRA) of 1998 (P.L. 105-264) expanded the
use of government travel cards by mandating the use of the cards for all official travel
expenses unless specifically exempted. The act is intended to further reduce the overall
cost of travel to the federal government through reduced administrative costs and by
taking advantage of rebates from the travel card contractor based on the volume of
transactions incurred using the card and on cardholders paying their monthly travel card
bills on time. To help cardholders pay their monthly bills on time, the act also requires that
agencies reimburse cardholders for proper travel claims within 30 days of submission of
accurate travel vouchers. Further, the act allows, but does not require, agencies to offset a
cardholder’s pay for amounts the cardholder owes to the travel card contractor as a result
of travel card delinquencies not disputed by the cardholder. For purposes of this report
delinquency occurs when a travel charge card account has an unpaid balance that is
outstanding 61 or more days after the billing or closing date on the travel card statement
                                         5
(not the date on which payment is due).

As required by the act, the General Services Administration (GSA) incorporated its
requirements into the Federal Travel Regulation (FTR), which governs travel policies for
all federal government employees, including overall policies and procedures governing the
use of government travel cards. The FTR requires all federal agencies to follow its
requirements and allows agencies the flexibility to augment these requirements with their
own implementing regulations. For example, while the FTR requires all federal employees
to use travel cards for official business travel unless they travel five or fewer times a year,
GAO’s policy is that employees must use travel cards if they travel two or more times a
year. 6 In accordance with the act, GAO employees must use the travel card for official
travel expenses, such as transportation tickets, lodging, and rental cars. The travel card is
not to be used for personal purchases, such as books, newspapers, or cash advances
through automatic teller machines (ATM) unrelated to official travel.

GAO’s travel card order requires employees to pay in full the amount on the travel card bill
within 30 days of the billing statement date and does not allow extended or partial
payments. The order also states that delinquent cardholders’ travel card privileges are
automatically suspended by U.S. Bank if the cardholder’s outstanding balance has not
been paid within 60 days of the billing date. Suspension means the cardholder will be
unable to use the travel card until the bank receives payment. Under U.S. Bank’s


5
  U.S. Bank travel charge card delinquency data and OMB’s Appendix B delinquency rate performance metric are
based on a definition of 61or more days of delinquency. However, there appears to be a conflict with this definition in
the Appendix B glossary, which defines delinquency as a charge card account balance that is unpaid for more than 61
days past the statement date. For the purpose of this report, the definition of 61or more days of delinquency is used
since the available data is based on that definition.
6
  GAO Order 0300.5, Government Accountability Office Travel Charge Card Program (May 5, 2010).

Page 2                                                                           GAO/OIG-11-1 GAO Travel Cards
cardholder agreement, the amount on the travel card billing statement is due upon receipt
and must be paid in full by cardholders each billing period.

GAO uses a GSA contract to obtain government-sponsored travel cards services. GAO
travel card services were provided by Bank of America from November 30, 1998, through
November 29, 2008, and by U.S. Bank starting on November 30, 2008. GAO receives
quarterly rebates from U.S. Bank based on the volume of card-based transactions and
prompt cardholder payments. Rebates are based on the timeliness of payments and are
reduced if significant numbers of cardholders do not pay their bills on time.

GAO has a program coordinator who monitors travel card usage, serves as a focal point for
answering questions, submits travel card applications to the bank on behalf of GAO travelers,
issues travel cards, and retrieves the cards from employees when they leave the agency. GAO’s
program coordinator (located in GAO’s Office of Financial Management) was given this
responsibility as a collateral duty, in addition to other travel-related and administrative duties.
Another key unit is the agency’s Office of Workforce Relations, which is responsible for
determining whether employees who misuse their travel card should be subject to disciplinary
actions.

Internal Control
Internal control, which comprises the plans, methods, and procedures used to meet missions,
goals, and objectives, is a major part of managing an organization. Internal control does not
guarantee the elimination of waste, fraud, and mismanagement; rather, it is a means of managing
the risk associated with federal programs and operations. It also serves as the first line of defense
in safeguarding assets and preventing and detecting errors and fraud. The three objectives of
internal control are to ensure the effectiveness and efficiency of operations, reliability of financial
reporting, and compliance with applicable laws and regulations. Managers should define the
control environment (e.g., travel card program or financial reporting) and then perform risk
assessments to identify the most significant areas within that environment for placing or
enhancing internal controls. The risk assessment is a critical step in the process to determine the
extent of controls. Once significant areas have been identified, control activities should be
implemented. Continuous monitoring and testing should help identify poorly designed or
ineffective controls and should be reported on periodically. Management is then responsible for
redesigning or improving those controls.

GAO's Standards for Internal Control in the Federal Government provides the overall
framework for establishing and maintaining internal controls and for identifying and addressing
areas at greatest risk of fraud, waste, abuse, and mismanagement. 7 GAO issued these standards
pursuant to requirements of the Federal Managers’ Financial Integrity Act of 1982 (FMFIA). The
act specifies that agencies must annually state whether their internal control systems comply
with standards for internal control prescribed by the Comptroller General and provide reasonable
assurance that, among other things, funds, property, and other assets are safeguarded against
waste, loss, unauthorized use, or misappropriation. OMB Circular No. A-123, Management
Accountability and Control, is based on GAO’s standards for internal control, and provides
executive branch agencies specific requirements for assessing and reporting on controls. OMB
Circular No. A-123 covers all aspects of an executive branch agency’s operations and has three



7
GAO, Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1 (Washington, D.C.:
November 1999).

Page 3                                                                    GAO/OIG-11-1 GAO Travel Cards
appendices that govern internal controls over financial reporting (Appendix A), 8 government
                           9                                        10
charge cards (Appendix B), and improper payments (Appendix C).

GAO’s order on internal controls 11 states the Comptroller General is committed to the spirit and
intent of FMFIA and OMB Circulars. While the internal control order does not specifically refer to
Appendix B, it does state that “management's responsibility for internal control is defined in OMB
Circular No. A-123.” GAO’s Controller through the Office of Program Analysis and Operations
annually conducts assessments of GAO’s internal controls in accordance with the principles of
OMB Circular No. A-123. We noted that GAO’s order on travel cards 12 does not refer to Appendix
B and the agency travel card program officials told us that they do not follow the appendix in
managing the program; and it is also not used in assessing the effectiveness of the program’s
internal controls.

According to OMB’s Circular No. A-123, Appendix B guidance, risk management controls,
policies, and practices are a critical tool for ensuring the efficiency and integrity of charge card
programs by eliminating payment delinquencies, charge card misuse, fraud, and other forms of
waste and abuse. OMB’s guidance requires executive branch agencies to have a charge card
management plan that describes how the agencies will ensure the ongoing effectiveness of charge
card program risk management controls. The general responsibilities of charge card managers in
implementing these risk management controls, policies, and practices are as follows:
•    Implementing the appropriate controls to ensure compliance with federal laws and
     applicable regulations and for monitoring program effectiveness.
•    Ensuring that any risk management policies and practices established in the agency’s
     charge card management plan are carried out effectively and that the charge card
     management plan is updated with enhanced risk management policies and practices,
     as applicable.
•    Ensuring that cardholder statements of account and supporting documentation are
     reviewed and utilized to monitor delinquency, misuse, and other transaction
     activities.
•    Reviewing available data to detect instances of delinquency, fraud, and misuse and
     identify trends and outliers in relevant indicators of charge card program
     performance.
•    Maintaining a policy that ensures that administrative and disciplinary actions are
     initiated in the event cardholders or other program participants fail to meet their
     responsibilities with respect to appropriate use and timely payment of charge cards.

OMB’s guidance also identifies controls and best practices that executive branch travel
card managers should use. One control is split pay disbursement, which allows
cardholders to route part of their travel voucher reimbursement, such as hotel, airfare, and
rental car costs, directly to the bank (e.g., U.S. Bank). Cardholders would only be


8
 OMB Circular No. A-123, Appendix A, Internal Controls Over Financial Reporting (July 2005).
9
 OMB Appendix B applies to all types of government charge cards, including purchase cards and travel cards.
10
   OMB Circular No. A-123, Appendix C, Requirements for Effective Measurement and Remediation of Improper
Payments (August 2006).
11
   GAO Order 0201.3.
12
   GAO Order 0300.5.

Page 4                                                                      GAO/OIG-11-1 GAO Travel Cards
responsible for those expenses selected not to be paid directly to vendors by the bank,
such as meals. . Best practices include deactivating travel cards or lowering spending limits
during periods of inactivity. OMB also requires executive branch agencies to have travel
card delinquency performance metrics, which assess every 4 months individually and
centrally billed travel card balances that are unpaid for 61 or more days past the closing
date on the travel card statement.

Objective, Scope, and Methodology
To assess whether GAO’s policies and procedures are effective in preventing and detecting
travel charge card misuse and delinquencies, we interviewed GAO officials in charge of the
travel card program and U.S. Bank officials who provide travel card services to GAO, to
understand their responsibilities, to determine how the program is managed, and to
identify applicable policies and procedures. We also reviewed GAO travel card program
policy and procedures to understand how they help prevent and detect travel charge card
misuse and delinquencies. Our criterion for reviewing GAO’s policies and procedures was
OMB Circular No. A-123, Appendix B, which establishes minimum requirements and
suggested best practices for travel card programs within the executive branch. To test the
effectiveness of these controls, we obtained U.S. Bank transaction data for GAO
employees with individually billed travel cards and for GAO centrally billed travel cards
from December 2008 (the first month these cards were available for use) through April
2010 and performed a number of analyzes to assess the effectiveness of GAO controls
intended to reduce misuse and delinquency. We also assessed the reliability of U.S. bank
data and found it to be sufficiently reliable to support the findings of our review. (See
attachment I for details on our scope and methodology.)

We conducted this performance audit from December 2009 through December 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

Recommended Controls and Best Practices Could Help Reduce Potential Misuse
and Delinquencies
Our review found that GAO could further reduce the risk of travel card misuse and delinquency
by making greater use of recommended controls and best practices of OMB’s Circular No. A-123,
Appendix B. We tested agency controls over the travel card program by analyzing U.S. Bank
transaction data on individually and centrally billed accounts and determined that (1) the number
of travel cards could be reduced, (2) travel card spending limits could be lowered, and (3)
increased monitoring of delinquent accounts was needed. We also identified that having
additional procedures on certain aspects of the program, such as procedures that set out the
requirements and time frames for referring delinquent cardholders for possible disciplinary
actions, would strengthen GAO’s program. In response to our work, GAO management has taken
a number of actions to reduce the risk of delinquency, such as lowering the monthly spending
limit for most individually billed cards from $12,500 to $7,500.

In addition, we reviewed GAO’s policy and procedures for detecting misuse and found them to be
generally effective. For example, we determined that the GAO travel card program coordinator
monitors travel card misuse by reviewing U.S. Bank reports every month. Specifically, to identify
charges that may not be official travel expenses, the coordinator each month reviews a standard

Page 5                                                              GAO/OIG-11-1 GAO Travel Cards
report that lists questionable transactions to help identify charges (e.g., alcohol, flowers, and
gifts) that may be a misuse of the travel card. To identify ATM cash advances that may not
involve government travel, the coordinator reviews data from the reports and confirms that a
travel authorization or voucher exists for the time frame during which the ATM advance was
received. When questionable charges or advances are identified, the coordinator sends an e-mail
to the cardholder, as well as the cardholder’s supervisors and management, and requests the
cardholder review the questionable charges. After reviewing the charges, the cardholder is
required to e-mail GAO’s Office of Workforce Relations staff on whether the charges were travel-
related or personal and to provide a brief explanation of the charge. Further, the procedures for
detecting misuse also include instructions for referring employees to Workforce Relations for
possible disciplinary actions.

Analyses Support Reducing the Number of Issued Cards, Lowering of Spending Limits, and
Increasing Monitoring of Delinquent Payments
Reduce the number of travel cards. Allowing individually billed cardholders to
maintain travel card accounts when not needed for government travel unnecessarily
increases the risk of misuse—through cardholders either mistakenly or intentionally using
the card for personal purposes. 13 To mitigate the risk of travel card misuse or delinquency,
OMB’s guidance identifies as a best practice performing periodic reviews of the number of
travel cards in use to ensure their numbers are appropriate.

To assess the controls over the issuance of GAO travel cards to prevent misuse, we
analyzed U.S. Bank data that showed total monthly charges for the 3,071 GAO employees
with individually billed cards and for the 18 centrally billed cards that were available
during the 16-month period we reviewed (December 2008 through March 2010). Our
analysis showed that GAO could reduce risk of misuse by decreasing the number of both
individually and centrally billed travel charge cards. For example, of 3,071 individually
billed travel cards we analyzed, 776 (25 percent) had never been used, and 376 (12
percent) were used once (had charges in one monthly billing statement). Of GAO’s 18
centrally billed travel cards, 12 were never used during the 16-month period we reviewed.
These cards could have allowed thousands of dollars to be charged monthly.

While GAO’s policy requires employees to obtain and use government cards if they travel
two or more times a year, we learned that GAO’s practice was not consistent with its
policy, and employees generally obtained cards with little or no assessment of their
immediate or future travel needs. For instance, when GAO transferred its travel card
program from Bank of America to U.S. Bank at the end of November 2008, the agency had
2,815 new individually billed cards issued to GAO employees without assessing travel
needs. In addition, the program coordinator stated that the agency did not continue the
practice of annually reviewing travel card use. According to the coordinator, previously
under Bank of America, GAO travel card program staff each March assessed whether
employees had traveled in the prior year and, after checking with the employee to confirm
they would not be traveling in the current year, would deactivate the cards of those
employees who were determined to be infrequent travelers. The coordinator stated that, if
a travel need arose, Bank of America cards could be quickly reactivated. U.S. Bank’s policy
is not to deactivate cards but to cancel them. Replacing canceled cards with new cards
takes several days longer than reinstating deactivated cards. While U.S. Bank’s policy does


13
 GAO, Travel Cards: Control Weaknesses Leave Army Vulnerable to Potential Fraud and Abuse, GAO-03-169
(Washington, D.C.: Oct. 11, 2002).

Page 6                                                                   GAO/OIG-11-1 GAO Travel Cards
not allow for the deactivation of cards, the program coordinator stated he is now working
with U.S. Bank to develop a process to identify cards with infrequent or no use and to
lower the spending limit of these cardholders to $1, which could be readily increased,
instead of the bank canceling the account. In addition, for the 16-month period we
reviewed, our analysis shows that GAO issued 51 travel cards to summer interns with a
$6,000 monthly spending limit. Of the cards issued, 18 were used—16 had charges under
$2,000, and 2 had charges under $3,000.

U.S. Bank has a process to identify and close travel cards that have not been used in 18
months. In its initial 18-month assessment (December 2008 through April 2010) of GAO
travel cards, the bank identified 658 unused cards. GAO requested that 191 of those cards
be kept open, resulting in 467 cards being closed. Since then, U.S. Bank identifies cards not
used each month on a “rolling 18-month basis.” In its fiscal year 2010 review of the
agency’s travel program internal controls, the Office of Program Analysis and Operations
recommended re-establishing a monitoring process for deactivating the travel cards for
infrequent GAO travelers based on a shorter period than the current 18-month time period
followed by U.S. Bank. However, as previously stated, U.S. Bank does not deactivate
cards. As a result, GAO would need to further assess whether deactivation is possible and,
if not, what other options are available.

Lower travel card spending and ATM limits. To mitigate the risk of travel card misuse
or delinquency, another OMB best practice is performing periodic reviews of the travel
card spending limits and ATM cash transaction limits to ensure their appropriateness.
Lowering limits can help reduce program risk because, with employees having smaller
amounts available to use, there is less potential for misuse or delinquency.

To test the appropriateness of spending limits, we analyzed U.S. Bank data for 2,295 GAO
employees who used their individually billed cards from December 2008 through March
2010 and determined that GAO could reduce the risk of misuse by significantly lowering
spending limits for many of these cards because most employees spent considerably less
that allowed by the limits. For the period reviewed, most GAO employees had a $12,500
monthly limit on their travel cards and could have spent up to $25,000 in any 2 consecutive
months. 14 As shown in figure 1, we found that no employee’s spending reached the $12,500
limit in the 16 months covered by our review. On average, employees spent a monthly total
of $1,181 for the 16 months reviewed. Our analysis shows that the percentage of
employees who would be affected by lowering the spending limit varied. For example,
with a monthly limit of $4,000, 8.3 percent of 2,295 employees (or 191) would have
exceeded this limit in the 16-month period, while 91.7 percent would not. Further, with a
monthly limit of $6,000, 2.4 percent of employees (or 55) would have exceeded this limit
for the period reviewed. (See attachment II for more information on our analysis of travel
card spending limits.)




14
     Employees with credit restrictions had a $5,000 monthly limit, and GAO interns had a $6,000 monthly limit.

Page 7                                                                             GAO/OIG-11-1 GAO Travel Cards
Figure 1: Individually Billed Cardholders Exceeding 1-Month Alternative and
Actual Spending Limits, December 2008 through March 2010




Note: Alternative limits range from $2,000 to $10,000. The actual limit was $12,500.

Similarly, as shown in figure 2, we learned no employee’s spending reached the $25,000 2-
monthly spending limit in the 16 months covered by our review. On average, employees
spent a total of $1,604 during any 2 consecutive months for the 16 months reviewed.
We also identified how employees would be affected by various lower spending limits. For
example, half of active card users never spent more that $2,000 in a 2-month period.
Further, with a 2-month limit of $4,000, 17 percent of employees (or 390) would have
exceeded this limit in the 16-month period, while 83 percent would not. And, with a 2-
month limit of $6,000, 7.4 percent of employees (or 170) would have exceeded this limit for
the period reviewed.




Page 8                                                                           GAO/OIG-11-1 GAO Travel Cards
Figure 2: Individually Billed Cardholders Exceeding 2-Month Alternative and
Actual Spending Limits, December 2008 through March 2010




Note: Alternative limits range from $2,000 to $20,000. The actual limit was $25,000.

Our analysis also shows that GAO needs to review its limits on ATM cash advances to
reduce the risk of misuse. GAO travelers can obtain up to $1,500 in cash each week and a
daily maximum of $500. Cash advances must be limited to expenses that cannot be
charged to employees’ government travel card, such as incidental expenses (e.g., taxis and
other local transportation). Our analysis shows that since 91.7 percent of employees
charged less than $4,000 per month for the 16-month period, having a $1,500 weekly cash
advance limit would seem much higher that warranted for most employees.

With U.S. Bank, GAO has had 18 centrally billed travel cards with monthly spending limits
ranging from $50,000 to $250,000. We analyzed data on these cards’ use from December
2008 through March 2010 and determined that GAO could reduce the risk and liability of
these cards by lowering their limits. Our analysis showed for the six centrally billed cards
used during this period, two had monthly charges above $10,000. Specifically, one with a
$200,000 monthly spending limit had about $21,000 in monthly charges and the other with
a $20,000 monthly spending limit had about $12,000 in monthly charges for the 16-month
period reviewed. The other four cards with monthly spending limits ranging from $50,000
to $200,000 had monthly charges below $2,000 for the period reviewed. Having high
monthly spending limits for GAO centrally billed cards that had limited or no use for the
period reviewed possess an inherent risk to the agency since GAO is directly responsible
for paying all charges related to these cards.

Having procedures for periodically reviewing travel card spending limits and related ATM
limits would enhance GAO’s travel card program controls and would also be consistent

Page 9                                                                           GAO/OIG-11-1 GAO Travel Cards
with GAO’s Standards for Internal Control in the Federal Government, which requires
that management develop and document procedures. 15 For example, the Managing
Director of GAO’s Forensic Audits and Special Investigations unit stated that having
periodic reviews (e.g., once or twice per year) would provide the agency with data by
which to evaluate limits and help reduce the inherent risk of the program. Further, the
Library of Congress has a similar requirement that employee travel card use be reviewed
twice a year and cards deactivated that have not been used for 6 months.

Increase monitoring of travel card delinquency. As previously discussed, a travel card
account with an unpaid balance that is outstanding 61 or more days after the billing or
closing date on the travel card statement is considered delinquent. Government travel
cards have an inherent risk for delinquency because no interest for late payments is
charged to the cardholder.

To test the effectiveness of GAO’s monitoring of delinquency, we analyzed U.S. Bank
payment data for GAO employees who used their individually billed cards one or more
times from December 2008 through April 2010 (hereafter referred to as active cards) and
found that GAO could strengthen its controls to reduce the risk of delinquency. Our
analysis showed that 238 employees, or over 10 percent, of 2,306 active card users during
this 17-month period were delinquent one or more times. Of the 238 employees,

•    214 were delinquent 1 to 30 days (the number of times employees were delinquent in
     making their payments ranged from one to eight),
•    22 were delinquent 31 to 60 days (the number of delinquencies per employee ranged
     from one to four), and
•    2 were delinquent 61 days or more (one employee was delinquent two times and one
     was delinquent three).

Three key factors appear to have contributed to the large number of delinquencies
identified through our analysis. First, GAO was not using an OMB-prescribed performance
metric that provides a quick and effective means of assessing delinquency of individually
billed accounts and identifies areas where increased management attention is needed. It is
also considered a key indicator of how well agencies monitor their travel charge card
program. The delinquency rate performance metric is calculated each month by U.S. Bank
and represents agency travel card account balances outstanding for over 61 days. It is
reported using three levels of performances—fully successful (accounts less than 2
percent delinquent), minimally successful (greater than 2 percent to less than 4 percent),
or unsuccessful (4 percent or more). In addition, the agency does not have a delinquency
rate performance goal, which GAO has reported can help gauge agency progress in
reducing delinquency. 16 Having such a goal would provide GAO with an additional
mechanism by which to determine whether its travel card controls were effective in
reducing employee travel card delinquency.

Second, prior to August 2010, GAO’s monitoring process resulted in notifications to
employees with accounts that were 10 days or more days delinquent—that is, 71 days or
more past the closing date on the billing statement—which would not enable the agency to

15
 GAO/AIMD-00-21.3.1
16
 GAO, Department of Health and Human Services: Controls over Travel Program Are Generally Effective, but
Some Improvements Are Needed, GAO-03-334 (Washington, D.C.: Feb. 21, 2003).

Page 10                                                                   GAO/OIG-11-1 GAO Travel Cards
prevent delinquencies before they occurred. Under this process, the program coordinator
each month would review a U.S. Bank report that listed all late and delinquent accounts in
order to identify accounts that were 10 and 30 days delinquent. The coordinator then
notified each of the delinquent cardholders and their management that the payment was
past due and must be paid immediately. 17

Third, at the time of our review there were no policies and procedures that set out the
requirements for when or how to refer delinquent cardholders for possible disciplinary
actions and for identifying the appropriate offices to be notified, such as GAO’s Office of
Workforce Relations and its Office of Inspector General. During the time period we
reviewed, U.S. Bank notified the GAO program coordinator that two employees were 91
days or more past due (or 61 days or more delinquent) and that GAO could initiate the
salary offset process to satisfy their debts. After U.S. Bank brought the two employees to
the coordinator’s attention, the coordinator notified the employees, their supervisors, and
                                                                18
managers of the potential salary offset and card cancellation, and urged prompt
resolution. The coordinator also referred the two cases to Workforce Relations for
consideration of disciplinary action. The travel card account for one of these employees
was canceled, and the employee was subject to disciplinary actions.

With no policies or procedures to make referrals, the program coordinator did not notify
GAO’s Office of Workforce Relations and its Office of Inspector General (OIG) about the 22
employees who were delinquent 31 to 60 days or the 214 who were delinquent 1 to 30 days.
Absent notification, the Office of Workforce Relations cannot determine if possible
disciplinary actions are warranted. Moreover, if OIG is not routinely notified of
delinquencies (and of other significant employee abuses of their travel cards), it may not (1)
become aware of systemic weaknesses in the travel card program that could be corrected
through improved internal controls or other improvements to oversight of the program that
OIG might recommend, and (2) be able to meet its responsibility to keep the Comptroller
General and Congress fully informed concerning fraud and other serious problems, abuses,
and deficiencies relating to the administration of programs and operations of GAO. 19 In
addition, without such information, OIG would not be able to determine whether employees
might have violated any federal criminal law that could warrant a referral to the U.S.
Attorney General, an important statutory responsibility of OIG.

Recent Management Attention
After we briefed GAO managers on the interim results of our work in June 2010, the
agency has taken a number of actions. In August 2010, GAO changed its monitoring
process to focus on accounts that are 10 days past due rather than 10 days delinquent, has
agreed to adopt the use of the delinquency performance metric, eliminated 12 of its 18
centrally billed cards, and reduced the monthly spending limit for one centrally billed
travel card from $200,000 to $125,000. In September 2010, the agency lowered the monthly
spending limit for most individually billed cards from $12,500 to $7,500, the 2-month limit
from $25,000 to $15,000, and the GAO intern limit from $6,000 to $4,000. The GAO


17
   Travel card accounts are past due when an unpaid balance is outstanding 31 days or more after the billing or closing
date on the travel card statement.
18
   U.S. Bank may cancel an account if it is 126 days past due from the closing date on the billing statement in which
the unpaid charge first appeared or has been suspended twice during a 12-month period for nonpayment and is past
due again on a payment not received within 45 calendar days from the closing date on the billing statement.
19
   See section 5 of the Government Accountability Office Act of 2008, Public Law No. 110-323 (31U.S.C. § 705 (c) (7)).

Page 11                                                                          GAO/OIG-11-1 GAO Travel Cards
Controller stated the agency plans to later assess the need for further reductions in travel
card spending limits. Lastly, the agency issued three agencywide notices that emphasize
the importance of employees being timely in making travel card payments.

Applying Additional Controls and Best Practices Could Further Reduce the Risk of Travel
Card Misuse and Delinquency
In reviewing the effectiveness of GAO’s efforts to prevent and detect travel card misuse
and delinquency, we also examined whether GAO was following best practices and other
recommended controls that OMB Circular No. A-123, Appendix B guidance requires for
executive branch agencies to reduce the risk of misuse and delinquency. GAO is using
some of the controls and best practices cited in OMB’s guidance. For example, GAO has
blocked the use of individually billed cards at a large variety of merchants that would
result in improper charges.

Our review identified that GAO could use other controls and best practices provided in
OMB Circular No. A-123, Appendix B, such as using split pay disbursement of cardholders
travel reimbursement to better mitigate the risk of card misuse or delinquency. Using more
of these controls and best practices could help GAO further reduce the risk of misuse or
delinquency in its travel card program and also support the agency in achieving its
strategic goal of being a leading practices federal agency. GAO may want to consider
adopting the following controls and best practices.

Split pay disbursements. Split pay disbursements allow cardholders to route key parts
of their travel reimbursement (such as airfare, rental car, and hotel costs) directly to U.S.
Bank and thus provide a quicker and more convenient way for cardholders to pay the bank
for certain travel charges. Further, with cardholders responsible for directly paying a
smaller amount of expenses, the use of split pay disbursement reduces the amount
available to be delinquent and increases agency rebates that are tied to the timeliness of
payments. Split pay disbursement can also reduce the risk of travel card misuse because
with most of an employee’s travel costs being directly paid to a bank, employees have
fewer travel costs (e.g., ATM cash advances) that could be misused. The Managing
Director of GAO’s Forensic Audits and Special Investigations unit, who has conducted
several reviews of federal government travel cards programs, stated that split pay
disbursement is a widely accepted practice for reducing delinquency and could assist GAO
in reducing its delinquency rate. According to GAO officials, GAO will begin assessing the
feasibility of using split pay disbursements at GAO after the Department of
Transportation’s (DOT) Enterprise Service Center implements split pay at DOT’s internal
                                                                   20
agencies, which is scheduled to be completed in fiscal year 2011. GAO officials stated
that in fiscal year 2011, DOT also plans to begin working with its other federal
customers—including GAO. Once it becomes available to GAO, the agency will decide
whether it will adopt split pay disbursement.

Periodically reporting information to management. OMB’s guidance calls for
executive branch agencies to use charge card data to monitor compliance with agency
policies and to assess the effectiveness of efforts to mitigate risk of fraud, waste, and
abuse. Executive branch agencies are required to maintain statistical and narrative


20
 Enterprise Service Center (ESC) is a shared services provider that supplies financial services to all DOT agencies, as
well as client federal agencies external to DOT. ESC provides GAO with a number of financial services, including
processing payments to reimburse travel expenses.

Page 12                                                                          GAO/OIG-11-1 GAO Travel Cards
information related to their travel card programs and to periodically report it to OMB. 21
The statistical data required by OMB guidance include the number of cards, by spending
and transaction limit; active accounts; charge card dollars spent; total rebates earned;
cases reported to the Office of Inspector General; and administrative and disciplinary
actions taken. The narrative information includes descriptions of the current process for
monitoring delinquency, best practices the agency uses in charge card management, and
plans (within the next 12 months) to enhance charge card systems by automating reviews
to detect instances of abuse, misuse, or fraud.

During the time of our review, GAO was not maintaining this type of information or
reporting it to management. Given the results of our work, it is important that GAO begin
maintaining and reporting this information to management so that the agency can better
oversee its efforts to reduce the risk of misuse and delinquency. In addition, having such
information could improve the management of this program and increase rebates. For
example, this information could provide trend data on whether rebates to GAO were
increasing as a result of recent agency efforts to ensure more prompt payment of travel
card bills and fewer delinquencies.

Performance metrics. Under OMB guidance, performance metrics are considered to be a
critical tool for improving charge card management, and there are several metrics to
assess the effectiveness of management controls, policies, and practices and to identify
areas where increased management attention is needed. Two key metrics are the travel
card delinquency rate for individually billed accounts and travel card delinquency rate for
centrally billed accounts. Both metrics assess the percentage of agency accounts that are
61 days or more delinquent. Further, agencies are encouraged to develop additional charge
card performance metrics to improve charge card management.

Management plan. OMB guidance states that charge card management plans are
important because they provide a description of how agencies will ensure, among other
things, the ongoing effectiveness of risk and rebate management. Moreover, charge card
management plans can provide a comprehensive mechanism for ensuring travel card
program controls are followed and used effectively, as well as provide a road map on how
agencies plan to enhance their risk management policies and practices, by requiring
•     identification of key program officials and their responsibilities;
•     management controls, policies, and practices for ensuring appropriate travel card
      usage and oversight of payment delinquencies, fraud, misuse, or abuse;
•     an explanation of how available reports and data are used for monitoring delinquency
      and misuse, developing performance metrics, and addressing other program
      management issues; and
•     a description of agency travel card training requirements.

For example, OMB guidance on charge card management plans provides steps agencies
must take to maximize rebates received from the travel card vendor, including strategies
to ensure on-time payment of travel card bills.



21
 Agencies listed in the original Chief Financial Officers Act of 1990 and the Department of Homeland Security are
required to report statistical data every quarter and narrative information biannually. All other agencies report the
data and information annually.

Page 13                                                                           GAO/OIG-11-1 GAO Travel Cards
GAO has incorporated some management plan components cited by OMB—procedures for
monitoring and mitigating travel card misuse and delinquency and for recovering travel
cards before employees leave the agency. Incorporating additional components would
provide GAO with a more comprehensive approach on how the agency plans to (1)
strengthen its risk management policies and practices and (2) ensure that its program
controls are followed and used effectively. In addition, OMB guidance requires executive
agencies to have a description of travel card managers’ responsibilities for implementing
risk management controls, policies, and practices to ensure they are effectively carried
out. GAO has a travel card program coordinator to oversee its program and having written
responsibilities for this coordinator position in a management plan would help ensure
travel card program controls are followed and used effectively and that recent agency
improvements in the program continue.

Conclusion
Employee travel is essential to GAO’s mission to support the work of Congress. As such, it’s
important that the agency’s travel card program be managed effectively to reduce the risk of
employee misuse and delinquency, as well as the risk of potential damage to GAO’s reputation.
To help improve management of this program, GAO needs to strengthen its policies and
procedures for preventing and detecting travel charge card misuse and delinquency. And it is our
view that the internal control standards and practices set forth in OMB Circular No. A-123,
Appendix B would be effective and useful mechanisms for both assessing and improving GAO's
internal controls over its travel card program. In response to our work, the agency has recently
taken actions to improve the timeliness of employee travel card bill payments. Further
improvements, such as developing additional program procedures and making greater use of
OMB-cited internal controls and best practices, could help reduce the inherent risk of the
program and support GAO in achieving its strategic goal of being a leading practices federal
agency.

Recommendations for Executive Action
To enhance GAO’s policies and procedures for preventing and detecting misuse and
delinquency in its travel charge card program, we recommend the Acting Comptroller
General to direct the Acting Chief Administrative Officer to take the following seven
actions:

•    Develop procedures to minimize the number of individually billed and centrally billed
     travel cards issued.
•    Create procedures to perform periodic reviews of the appropriateness of individually
     and centrally billed travel cards spending limits and related ATM cash advance limits
     to help ensure the effectiveness of travel card expenditure controls.
•    Develop and implement policies and procedures that describe the agency’s
     requirements, time frames, and process for referring delinquent cardholders to the
     Office of Workforce Relations for consideration of disciplinary actions and for
     notifying the OIG of employees who are delinquent or have misused their travel
     cards.
•    Develop and report statistical and narrative information to support management
     decision making and to facilitate program policy compliance monitoring.



Page 14                                                           GAO/OIG-11-1 GAO Travel Cards
•    Establish a performance goal to gauge agency progress in reducing travel card
     payment delinquency.
•    Consider establishing a policy to use OMB Circular No. A-123, Appendix B in the
     agency’s annual A-123 assessment of the effectiveness of the travel card program’s
     internal controls.
•    Consider (1) adopting other internal controls and best practices identified in OMB
     Circular No. A-123, Appendix B that are not currently used in managing the travel
     card program and that could help reduce program risk, such as split pay
     disbursement and a charge card management plan, and (2) assessing annually or
     periodically whether any new or additional OMB controls and best practices should
     be adopted.

Agency Comments
The Inspector General provided GAO with a draft of this report for review and comment. GAO
agreed with our recommendations. The agency also provided technical comments that we
incorporated, as appropriate.

Actions taken in response to our recommendations are expected to be reported to my office
within 60 days.

                                _____________________________

We are sending copies of this report to the other members of GAO’s Executive Committee (the
Acting Chief Administrative Officer and the Acting General Counsel), GAO’s Controller, and
GAO’s Audit Advisory Committee. The report also is available at no charge on the GAO Web site
at http://www.gao.gov.

If you or your staff have any questions about this report, please contact me at (202) 512-5748 or
garciaf@gao.gov. Contact points for GAO’s Offices of Congressional Relations and Public Affairs
may be found on the last page of this report. Key contributors to this report were Cathy Helm
(Deputy Inspector General), Alan Belkin (General Counsel), and Kurt Kershow.

Attachments




Page 15                                                            GAO/OIG-11-1 GAO Travel Cards
Attachment I
                             Objective, Scope, and Methodology

To assess whether GAO’s policies and procedures are effective in preventing and detecting travel
charge card misuse and delinquencies, we interviewed GAO officials in charge of the travel card
program, and U.S. Bank officials who provide travel card services to GAO, to understand their
responsibilities, to determine how the program is managed, and to identify agency policies and
procedures. In addition, we conducted a literature search to obtain information on federal
government travel charge card programs and to identify challenges and solutions in reducing
travel charge card misuse and delinquencies. This search identified reports by GAO, various
inspector general offices, Congressional Research Service, and others. In addition, we reviewed
federal management guidance and internal control standards to identify accountability
requirements that apply to other federal agencies.

We also reviewed GAO travel card program policy and procedures to understand how they help
prevent and detect travel charge card misuse and delinquencies. Our criterion for reviewing
GAO’s policies and procedures was OMB Circular No. A-123, Appendix B, which establishes
standard minimum requirements (including internal controls designed to minimize the risk of
travel card misuse) and suggested best practices for executive branch agencies’ travel card
programs. 22 Further, we also compared GAO’s policies and procedures to best practices and other
recommended controls of OMB Circular No. A-123, Appendix B to identify areas where GAO
could strengthen management its travel card program.

To test the effectiveness of the travel card program procedures, we performed a number of
analyses of U.S. Bank transaction data for both employees with individually billed travel cards
and for centrally billed travel cards. First, to assess the controls over the issuance of GAO travel
cards to prevent misuse, we analyzed U.S. Bank total monthly travel card charge data for 3,071
employees with individually billed cards 23 and 18 centrally billed cards that were available during
                                                                             24
the 16-month period we reviewed (December 2008 through March 2010). We analyzed the data
to assess whether and how frequently these cards were used.

Second, to test the appropriateness of travel card spending limits as a control to reduce the risk
of misuse, we analyzed U.S. Bank data for 2,295 employees with individually billed cards and for
six centrally billed cards that were used from December 2008 through March 2010. 25 For
individually billed cards, we analyzed the data to identify the maximum amount charged on the
card in 1 month or 2 consecutive months by employees over the 16-month period. We then
determined if the maximum amounts charged by employees exceeded spending limits that GAO
had set for these cards. We also conducted an analysis to identify the number and percentage of
employees whose maximum 1- and 2-month spending amounts would have exceeded a range of
lower spending limits. For centrally billed cards, we analyzed U.S. Bank transaction data for the
same 16-month period to determine the maximum monthly amounts spent and how those
maximum amounts compared with these cards’ spending limits.


22
   OMB Circular No. A-123, Appendix B, Improving the Management of Government Charge Card Programs (Jan. 15,
2009).
23
   In certain cases, employees had more than one card—for example, when an employee lost a card and had a new
card issued. For the employees who had more than one card, we combined the transaction data for all cards into one
set of data.
24
   Our analysis began in December 2008, the first month GAO travel cards were available for use under U.S. Bank.
25
   For this analysis, we excluded the 776 individually billed cards and 12 centrally billed cards that were not used.

Page 16                                                                         GAO/OIG-11-1 GAO Travel Cards
Third, to test the effectiveness of GAO’s monitoring of travel card delinquency, 26 we analyzed U.S.
Bank data on employees’ payments for the 2,306 employees with individually billed cards that
were used one or more times during December 2008 through April 2010 (17 monthly billing
cycles). We analyzed the payment data to determine if employees were delinquent in paying 1 or
more times and the length of each delinquency—that is, whether employees were 1-30, 31-60, or
and 60 or more days delinquent.

We assessed the reliability of U.S. Bank data by (1) electronically testing the data to identify and
address data anomalies, (2) interviewing U.S. Bank and agency officials knowledgeable about the
data, and (3) obtaining and reviewing U.S. Bank information on the audits and controls the bank
uses to ensure data reliability. We determined that the data were sufficiently reliable for the
purposes of this report.

We conducted this performance audit from December 2009 through December 2010 in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective.




26
 For purposes of this report, delinquency occurs when a travel charge card account has an unpaid balance that is
outstanding 61 or more days after the billing or closing date on the travel card statement (not the date on which
payment is due).

Page 17                                                                        GAO/OIG-11-1 GAO Travel Cards
Attachment II

     OIG Analysis of Individually Billed Cardholders’ Travel Card 1-Month and
             2-Month Spending, December 2008 through March 2010

The following is OIG’s analysis of individually billed cardholders’ travel card highest and lowest
1-month and 2-month spending. For the period we reviewed (December 2008 through March
2010), most GAO employees had a $12,500 monthly limit and a consecutive 2-month limit on their
travel cards of $25,000. Our analysis shows that for most GAO employees, actual spending was
significantly lower for both the established limits and alternative limits.

Table 1: Analysis of Individually Billed Cardholders’ 1-Month Spending That
Exceeded or Was under Actual and Alternative Spending Limits, December 2008
through March 2010
                                              Percentage of                       Percentage of
                            Employees            employees          Employees        employees
Spending limit              under limit         under limit          over limit       over limit
$12,500a                          2,295                  100                  0                 0
10,000                            2,289                 99.7                  6               0.3
8,000                             2,279                 99.3                 16               0.7
6,000                             2,240                 97.6                 55               2.4
4,000                             2,104                 91.7                191               8.3
2,000                             1,488                 64.8                807              35.2
Source: OIG analysis of U.S. Bank data.
a
  GAO’s actual 1-month spending limit for the period we reviewed.



Table 2: Analysis of Individually Billed Cardholders’ 2-Month Spending That
Exceeded or Was under Actual and Alternative Spending Limits, December 2008
through March 2010

                                              Percentage of                       Percentage of
                            Employees            employees          Employees        employees
Spending limit              under limit         under limit          over limit       over limit
$25,000a                          2,295                  100                  0                 0
20,000                            2,295                  100                  0                 0
15,000                            2,291                 99.8                  4               0.2
10,000                            2,276                 99.2                 19               0.8
8,000                             2,236                 97.4                 59               2.6
6,000                             2,125                 92.6                170               7.4
4,000                             1,905                   83                390                17
2,000                             1,168                 50.9              1,127              49.1
Source: OIG analysis of U.S. Bank data.
a
  GAO’s actual 2-month spending limit for the period we reviewed.




Page 18                                                                  GAO/OIG-11-1 GAO Travel Cards
Attachment III: Comments from the Office of the Comptroller General of the United States




Page 19                                                          GAO/OIG-11-1 GAO Travel Cards
Page 20   GAO/OIG-11-1 GAO Travel Cards
Page 21   GAO/OIG-11-1 GAO Travel Cards
(998283)

Page 22    GAO/OIG-11-1 GAO Travel Cards
                          To report fraud, waste, and abuse in GAO’s internal operations, do one of
Reporting Fraud,          the following. (You may do so anonymously.)
Waste, and Abuse in
                      •   Call toll-free (866) 680-7963 to speak with a hotline specialist, available 24
GAO’s Internal            hours a day, 7 days a week.
Operations
                      •   Send an e-mail to OIGHotline@gao.gov.

                      •   Send a fax to the OIG Fraud, Waste, and Abuse Hotline at (202) 512-8361.

                      •   Write to:
                          GAO Office of Inspector General
                          441 G Street NW, Room 1808
                          Washington, DC 20548

                          To obtain copies of OIG reports and testimony, go to GAO’s Web site:
Obtaining Copies of       www.gao.gov/about/workforce/ig.html.
GAO/OIG Reports and
Testimony

                          Ralph Dawn, Managing Director, dawnr@gao.gov, (202) 512-4400
Congressional             U.S. Government Accountability Office, 441 G Street NW, Room 7125
Relations                 Washington, DC 20548

                          Chuck Young, Managing Director, youngc1@gao.gov, (202) 512-4800
Public Affairs            U.S. Government Accountability Office, 441 G Street NW, Room 7149
                          Washington, DC 20548




                          This is a work of the U.S. government and is not subject to copyright protection in the
                          United States. The published product may be reproduced and distributed in its entirety
                          without further permission from GAO. However, because this work may contain
                          copyrighted images or other material, permission from the copyright holder may be
                          necessary if you wish to reproduce this material separately.




                                 Please Print on Recycled Paper
